Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Mutual of Omaha's Medicare Part A Emergency Department Adjustments for Inpatient Psychiatric Facilities
July 09, 2008 | Audit A-01-07-00519
Executive Summary
Mutual of Omaha (Mutual) made overpayments to hospital-based inpatient psychiatric facilities (IPF) as a result of incorrect coding on claims for beneficiaries who had been admitted to the IPF upon discharge from the acute care section of the same hospital.  Based on our sample results, we estimate that Mutual overpaid hospital-based IPFs $213,000 for incorrectly coded claims for stays during calendar years 2005 and 2006.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS